OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PAKISTAN’S
LIVELIHOOD DEVELOPMENT
PROGRAM FOR THE UPPER
REGION OF THE FEDERALLY
ADMINISTERED TRIBAL AREAS
AUDIT REPORT NO. G-391-11-002-P
DECEMBER 10, 2010




ISLAMABAD, PAKISTAN
Office of Inspector General


December 10, 2010

MEMORANDUM

TO:                  USAID/Pakistan Mission Director Acting, Denise Herbol

FROM:                Office of Inspector General/Pakistan, Audit Manager, Michael Hutchinson /s/

SUBJECT:             Audit of USAID/Pakistan’s Livelihood Development Program for the Upper
                     Region of the Federally Administered Tribal Areas
                     (Report No. G-391-11-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included your response, without
attachments, in Appendix II.

The report contains five recommendations to help the mission improve various aspects of
the program. On the basis of your written comments, we determined that final action has
been taken on two recommendations, and management decisions have been made on the
remaining three recommendations. Please provide the Audit Performance and Compliance
Division in the USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary
documentation to achieve final action on the recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during
this audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
CONTENTS
Summary of Results ............................................................................................................1


Audit Findings ......................................................................................................................5
          Staff Overrode Management Controls........................................................................5

          Overreliance on Contractors Created Risks...............................................................7

          Communications and Planning for Shift in Strategy
          Fell Short ..................................................................................................................10

Evaluation of Management Comments ............................................................................13


Appendix I—Scope and Methodology..............................................................................14


Appendix II—Management Comments.............................................................................16
SUMMARY OF RESULTS
The Federally Administered Tribal Areas (FATA) of Pakistan, with an estimated
population of 3.1 million, has high unemployment, widespread poverty, and separate
legal structures. Located in northwestern Pakistan, FATA shares its rugged and
mountainous border with Afghanistan. Extremist and terrorist groups take advantage of
the geographic and social isolation and lack of governing systems to exert their influence
on the people of this region. According to the Government of Pakistan (GOP), a
development lag keeps this region in a perpetual state of poverty, conflict, and isolation.

Development in FATA has become vital to Pakistan’s progress in fighting insurgents.
Whereas only 1 percent of U.S. funding went toward development in FATA from 2002
through 2007, in September 2007, the U.S. Government and the GOP prepared a
development program that supports Pakistan’s Sustainable Development Plan for FATA.
As part of this joint effort, in 2008 USAID/Pakistan initiated the $300 million Livelihood
Development Program (LDP) to address the problems in FATA and neighboring Khyber
Pakhtunkhwa (formerly known as the North-West Frontier Province). 1

The main goal of the Livelihood Development Program is to provide social and economic
stabilization in FATA to counter the growing influence of extremist and terrorist groups.
LDP is a community-based program to improve living conditions and opportunities for
residents of selected communities. The program was structured with an initial focus on
youths aged 14–30, but the program has broadened its focus. Program implementers
coordinate with the mission’s strategic partners: GOP officials, political agents, the FATA
Secretariat, the FATA Development Authority, and community and tribal leaders.
According to USAID/Pakistan, increasing incomes and generating employment are
important undertakings to counter the growing influence of extremist and terrorists
groups in FATA.

On April 30, 2008, USAID/Pakistan signed a 5-year, $150 million cooperative agreement
with a U.S.-based nongovernmental organization for work in upper FATA. 2 As of June
2010, the program for upper FATA had expended $46.8 million of the $60 million
obligated. USAID also signed a cooperative agreement with another U.S.-based
nongovernmental organization that covered the remaining (“lower”) FATA. The program
has three components:

•   Creating jobs, increasing incomes, and teaching employable skills with a focus on
    unemployed youth.
•   Revitalizing community infrastructure and essential services.
•   Supporting established businesses and developing new sustainable businesses.


1
  When the cooperative agreement was signed, Pakhtunkhwa was known as the North-West
Frontier Province, and all program documentation refers to this area as “NWFP.”
2
 The program for upper FATA covers the three tribal agencies of Bajaur, Mohmand, and Khyber
as well as areas around Peshawar formerly known as the Frontier Region Peshawar and NWFP
Peshawar.



                                                                                         1
After a review of the first 2 years of activities, OIG/Pakistan found that the program has
not achieved its main goal of social and economic stabilization to counter the growing
influence of extremist and terrorist groups in upper FATA. The mission had no baseline
data to determine progress toward countering the influence of these groups. In addition,
the program had executed only 53 percent of planned activities, and program outcomes
were weak. Security issues and allegations of wrongdoing overshadowed and impeded
program progress. Other factors directly affecting the program included a change in
focus toward humanitarian and disaster assistance and the announcement of a shift in
U.S. Government strategy toward including more Pakistani institutions in program
implementation.

Security issues were the main cause of the poor performance. Specific incidents
included the assassination of the chief of party for lower FATA’s implementer, the
kidnapping of an aid worker, and threats to monitoring teams. Throughout FATA, armed
conflict and acts of terrorism increased during this period, limiting access to many areas.
In November 2008, after the assassination, all senior staff for U.S.-based organizations
relocated from Peshawar to Islamabad at the request of the U.S. Embassy.
Implementers found that operating the program from a distance under tight security
constraints created problems, including increased security and operational costs, yet the
program budget did not increase. 3

Allegations of wrongdoing also impeded progress. The implementer stated that program
activities were delayed because the implementer had to counter allegations and
because of additional tiers of oversight put in place to ensure greater accountability. The
implementer changed management and dismissed some of its contractors.
Nevertheless, during audit fieldwork USAID/Pakistan terminated the cooperative
agreement for upper FATA on June 4, 2010. USAID stopped all work at that point to
determine the effect of the contractor’s default. 4 OIG investigations continued throughout
the audit.

Two additional factors contributed to program delays. First, USAID/Pakistan used
program resources to provide humanitarian and disaster assistance to flood victims and
internally displaced persons fleeing conflict areas of FATA. The assistance began in
August 2008, only months after the upper FATA program started, and continued until the
implementer’s termination. Mission officials acknowledged that the work diverted time
and resources from LDP activities. USAID/Pakistan provided no additional funding to
cover the costs. Approximately $7.9 million was attributed to this work. Second, in
September 2009 the U.S. Department of State (State Department) initiated a shift in
strategy toward using more Pakistani institutions to implement USAID programs. During
this time, all USAID/Pakistan incremental funding requests went through the State
Department for approval. The delays in incremental funding created more budgetary
problems for the program. 5 Furthermore, relying on directions from mission staff, the

3
  USAID/Pakistan requested and approved security enhancement plans with adjusted budget
requests from LDP implementers, but the implementers never received the approved funding.
4
 At the time of this audit, USAID/Pakistan intended to resume program work in upper FATA with
other implementers.
5
  USAID/Pakistan documents show that, because of monthly spending rates, the LDP
implementers were under budgetary constraints caused by the State Department’s approval
process for incremental funding.


                                                                                           2
implementer reduced or entirely eliminated many LDP activities because of uncertainty
about future funding for the program. A mission official noted that the directions were
erroneous and should not have been issued to the implementer. FATA community
leaders and the Government of Pakistan had selected many of these activities.

USAID/Pakistan officials commented that program implementers had engaged in heroic
work for the people of FATA, despite the many problems and obstacles. The following
are two examples of livelihood activities that, although small in terms of dollars,
produced quick and tangible results. Furthermore, these activities made some progress
toward bringing women into the mainstream development process in a region where
cultural constraints often limit women’s involvement.

Literacy Centers. The implementer’s reports show that approximately $336,286 was
spent toward enhancing literacy and numeracy skills for 8,026 males and 3,231 females
in upper FATA. With an average family size of 10 children and a 3 percent literacy rate
for women, the potential effect of teaching parents to read and write can be critical.
According to the implementer, low literacy is the single factor most likely to cause
insurgency to rise within FATA. In response, the program established 454 literacy
centers and employed 341 male teachers and 113 female teachers.

Agriculture. After 2 years, 2,639 farmers had improved agricultural yields and
successfully gained higher prices for their produce as a result of extension and
marketing efforts that cost approximately $261,000. The poorest families in upper FATA
earn their living from small farms as sharecroppers or through agricultural wage labor.
Women of FATA provide much of the labor for agriculture, although their contribution is
not officially recognized. LDP focused development efforts on land areas with higher
potential yields. Farmers planted selected cash crops that they could sell directly to
markets outside of FATA. This value-chain approach optimized the farmers’ return on
capital and labor. Farmers also took opportunities to sell their produce collectively
through farm service centers or other marketing associations.

Despite these encouraging successes, overall progress for program activities was slow,
largely because of the intervening factors already mentioned. Although some factors
were beyond USAID/Pakistan’s management control, USAID/Pakistan needs to address
the following problems that are within its control:

•   Staff overrode management controls. USAID/Pakistan staff did not follow
    management controls. Technical staff in the mission addressed contractual matters
    that should be handled only by the agreement officer or took action without proper
    approvals. Clearly articulating lines of authority, responsibility, and accountability will
    help prevent staff from acting outside their authority. (See page 5.)

•   Overreliance on contractors created risks. USAID/Pakistan relied on contractors
    to perform services closely related to inherently governmental functions. A third-
    party contractor’s conflict of interest in overseeing another contractor’s work created
    risks when the mission did not address the gap in services created by the conflict.
    Furthermore, a PSC contractor on which the mission relied to perform important
    contract management functions for the $300 million program was terminated for
    ethical violations. The mission needs to heighten the level of scrutiny of third-party
    contractors who monitor other contractors. The mission should also supervise PSCs
    closely as they perform contract management functions. (See page 7.)


                                                                                             3
•   Communications and planning for shift in strategy fell short.                The
    announcement of the shift in strategy to de-emphasize the use of U.S.-based
    contractors in Pakistan affected LDP operations because the staff misconstrued
    information and reacted without authorized plans from the mission. USAID/Pakistan
    needs to plan for the transition and communicate its plans to implementers, the
    FATA Secretariat, and the FATA Development Authority. (See page 10.)

In consideration of our audit findings, we recommend that USAID/Pakistan take the
following actions:
1. Develop and implement a periodic training program for mission staff that clearly
   defines the authority, responsibility, and accountability of agreement officers,
   technical representatives, and program staff, including their communications with
   implementers, to support effective management. In addition, the training program
   should be available on the Intranet for rotating staff to review in the interim between
   training sessions. (See page 7.)
2. Develop a plan, in compliance with Federal Acquisition Regulation 37.114 and the
   Office of Management and Budget (OMB) guidance to provide proper oversight and
   management of contractors that support contract and agreement administration.
   (See page 10.)
3. Analyze the mission’s internal capability for control and management of contractors
   working on the Livelihood Development Program, taking into account the goals of the
   program, the complexity of the work, the need for specialized skills, and the effect of
   contactor default on the program performance. Further, use this analysis as a
   template for the mission. (See page 10)
4. Develop and implement a mission workforce plan with guidelines for the
   consideration of using more U.S. federal personnel (known as U.S. direct hires) for
   positions involved in services closely associated with inherently governmental
   functions. (See page 10.)
5. Develop and implement definitive plans for the Livelihood Development Program
   regarding the shift toward more direct funding to Pakistani institutions, including
   incremental funding, budgets, transition plans, and any other information that
   requires modifications of relevant agreements and contracts. Further, designate
   appropriate personnel to communicate these plans to implementers and the
   Government of Pakistan. (See page 12.)

The audit scope and methodology are described in Appendix I, and USAID/Pakistan’s
comments are found in Appendix II.

The OIG evaluation of management comments begins on page 13. On the basis of an
evaluation of the mission’s response to the draft report, we determined that final action
has been taken on two recommendations, and management decisions have been
reached on the remaining three recommendations.




                                                                                        4
AUDIT FINDINGS
Staff Overrode Management
Controls
According to the U.S. Government Accountability Office (GAO) Standards for Internal
Control in the Federal Government, a good management control environment requires
that organizational structures clearly define key areas of authority and responsibility and
establish appropriate lines of reporting. Controls are also affected by delegations of
authority and responsibility for operating activities, reporting relationships, and
authorization protocols. Good human capital policies and practices are also critical
factors, including a proper amount of supervision. However, GAO notes that factors
outside the control or influence of management can affect the achievement of goals. For
example, errors of judgment and acts of collusion to circumvent controls can affect
objectives. Although management controls cannot provide absolute assurance that all
objectives will be met, established controls provide a reasonable assurance of meeting
objectives.

Furthermore, management controls should provide reasonable assurance of compliance
with applicable laws and regulations. For example, USAID’s Automated Directives
System (ADS) prescribes that USAID and U.S. Government policy prohibits U.S. officials
from acting without proper authority in a way that leads a recipient or potential recipient
acting in good faith to believe that USAID has changed the amount of an existing award
or revised an existing award budget, program description, or any of the terms and
conditions of the award (ADS 303.3.18). Such actions could rise to the level of an
unauthorized commitment.

We found that USAID/Pakistan staff overrode management controls by conducting work
reserved for the agreement officer, such as administering and making determinations
regarding a cooperative agreement, and taking action without authorized approval. For
example, in August 2008, shortly after starting work in upper FATA, USAID/Pakistan
directed the implementer to provide disaster response and emergency relief services
that were not part of the Livelihood Development Program (LDP) scope of work or
budget. 6 The services included response to the flood victims in Khyber Agency and
response to internally displaced persons coming into the Peshawar region as a result of
conflict. At that time, no other U.S. Government response was available in the area, and
the mission determined that LDP resources should be used for this work. However, the
mission made no revisions to the program to reflect this change in program focus. The
work, which spun off into infrastructure activities that extended into the second year of
implementation, diverted resources from program activities, changed the scope of work,
and affected LDP’s budget. 7 The implementer attributed $7.9 million to the disaster and
relief work from August 2008 to March 2010.


6
 The mission still needed to address reported problems with procurements and payments for
work.
7
 The implementing partner did receive approximately $225,000 for a volunteer program, but that
was a fraction of the amount of resources used for emergency relief.



                                                                                            5
In another instance, technical staff bypassed proper lines of authority to start work on the
Barang-Kot Road (Barang Road) project. USAID staff members stated that they felt
“pressure” to complete this road work quickly. This road reconstruction, identified as a
priority project by tribal community consensus, is the single largest LDP infrastructure
project to date, with an estimated cost of $3.7 million. The Barang Road is a
22-kilometer stretch of road connecting Barang, Bajaur Agency, and Kot, Malakand, and
it is considered strategically important for economic development in this region because
it links southeastern Bajaur with settled areas. A prior USAID engineer reviewed and
approved the preaward cost estimates for construction funding, and the agreement
officer approved them. Following up on the award process, a contract engineer in the
USAID Peshawar office reviewed design and technical documents for the subcontract
work in late July 2009 and discovered several problems, including omissions of
important construction contract clauses, missing criteria for the subcontractor’s final
evaluation, and the need for verifications related to certain cost estimates.

According to the cooperative agreement, the contracting officer should handle contract
issues directly related to construction work—including the selection of subcontractors—
and review contract clauses. However, the engineer communicated his concerns only to
the implementer and the technical office. In response, a mission official in the technical
office declared that these concerns might be addressed in future projects, but there must
be no delays with the Barang Road project. After attempting to follow up on the
contractual issues in September 2009, the engineer had minimal involvement. 8

No one in the technical office notified the agreement officer of the contract concerns
raised by the engineer—concerns that became serious problems later in the project. We
found allegations of overpayment for earthwork, issues with the quality of the work, and
reports of substitution of materials. Monitoring teams also reported problems from
December 2009 until June 2010, when USAID/Pakistan terminated the work.

A third example occurred in early October 2009, when USAID/Pakistan staff instructed
the implementing partners (the one for upper and the one for lower FATA) to develop
plans to transition program work to the Government of Pakistan and local
nongovernmental organizations, in response to the shift in strategy announced by the
State Department. (See page 10.) Although mission officials other than the agreement
officer may communicate planning and implementation decisions, a transition plan
changes the terms of the agreement and, according to a mission official, should be
handled only through the contracting office once the mission has approved the contract.
Relying on mission documents, the technical staff, including the agreement officer’s
technical representative (AOTR) who reports to the Peshawar office, asked the
implementer to end tasks by December 2009, then moved the date to March 2010, and
later moved the date again to September 2010. The staff also told implementers that
USAID/Pakistan had planned for a 40 percent reduction in the budget for LDP. The
implementer adopted this budget reduction and presented it in reporting documents.
Assuming a reduction in funds, the staff and the implementers dropped or reduced many
activities, apparently without consulting USAID’s strategic partners. (See page 10.)
Therefore, some activities were cut to months and others to weeks, becoming tasks with
short deadlines. Meanwhile, mission staff added new tasks for the implementing partner,


8
  The mission engineer first visited the site in February 2010. USAID/Pakistan terminated the
contract before the engineer could make another visit, scheduled for June 2010.


                                                                                           6
requiring the partner to revise plans and perform new tasks in short time periods—again
without the agreement officer’s approval.

In these three instances, the lines of authority and responsibility for mission staff were
not clear, particularly when the staff communicated directly with implementing partners.
The partners presumed that the AOTR and staff in the Peshawar office had the authority
to direct certain actions, yet as the examples above indicate, the staff did not always
have this authority. In some instances, directions to the implementers came from the
technical staff, when the proper line of authority and responsibility for such
communications rested with the agreement officer. Furthermore, one USAID/Pakistan
official implied that directing implementers and contractors to develop and operate under
transition work plans with reduced budgets and without proper authority came very close
to an unauthorized commitment. The official further implied that work performed by the
implementers on transition plans was merely a “drill” that diverted time and resources
from the program.

Program performance deteriorated when USAID/Pakistan staff overrode management
controls and bypassed organizational structures. Much time and funding went toward
disaster response and emergency relief efforts, draining resources from the planned
LDP activities. In addition, allowing outside pressures to take precedence over important
management controls led to poor results in work such as the Barang Road project; and
the shift in strategy and the drills of drafting transition plans without proper authority
diverted more time and resources from LDP. We recommend the following:

    Recommendation 1. We recommend that USAID/Pakistan develop and
    implement a periodic training program for mission staff that clearly defines the
    authority, responsibility, and accountability of agreement officers, technical
    representatives, and program staff, including their communications with
    implementers, to support an effective management control environment.
    Because of the constant changes in personnel, we recommend that the training
    materials be made available on USAID/Pakistan’s Intranet for all new arrivals to
    review in the interim between training sessions.

Overreliance on Contractors
Created Risks
According to the Federal Acquisition Regulation (FAR), federal agencies using
nonpersonal service contracts 9 , such as third-party contractors, need to exercise greater
scrutiny and provide more management oversight by U.S. direct-hire personnel when
performing functions closely associated with inherently governmental functions. 10
Although not explicitly excluded from performing governmental functions, according to

9
  FAR 37.101. Nonpersonal service contractors are not subject, either by the contract’s terms or
by the manner of its administration, to the supervision and control generally found in relationships
between the Government and its employees.
10
   FAR 37.114(b). In this report, the term “contractors” includes contractors, implementers, and
grantees. Although the FAR does not refer specifically to grants and cooperative agreements, the
substantive policies on “inherently governmental” restrictions are important and relevant to all
work performed on behalf of USAID. With the clear examples of functions closely associated with
inherently governmental functions, this audit applies the regulations by analogy to cooperative
agreements and grants.


                                                                                                  7
the FAR, a personal service contractor (PSC) has more of an employer–employee
relationship with U.S. direct-hire personnel, who provide close and continual supervision
and control, when the contractor performs services closely associated with inherently
governmental functions.

“Inherently governmental functions” are defined as being so intimately related to the
public interest as to require performance by federal employees. In addition, other
functions, though not restricted to federal employees, are considered to be closely
supporting inherently governmental functions. These functions include supporting
acquisition planning, providing assistance in contract management, providing technical
evaluation of contract proposals, providing assistance in the development of statements
of work, and performing services that involve or relate to the evaluation of another
contractor’s performance.

Additionally, OMB recently introduced a policy letter with a uniform definition of
“inherently governmental functions” for all federal agencies. The policy also clarified the
functions that are closely associated with inherently governmental functions. 11 OMB
emphasizes the need to mitigate risk by avoiding conflicts of interest and assigning a
sufficient number of qualified direct-hire federal personnel (known as U.S. direct hires)
with appropriate expertise to administer the work and give heightened management
attention to ensure that contractors’ services do not expand to include inherently
governmental functions. The policy letter also points out that inappropriate or excessive
reliance on contractors to perform functions may put internal controls and operations at
risk.

According to these criteria, the audit found that USAID/Pakistan did not properly manage
contractors performing services closely associated with inherently governmental
functions for LDP by mitigating risks. The audit found two examples of these functions:
USAID/Pakistan (1) retained a third-party contractor to monitor the performance of
another USAID nonpersonal service contractor and (2) hired a PSC to provide support in
the administration of contracts.

In May 2009, the mission retained a third-party, U.S.-based contractor to perform onsite
monitoring and evaluation of program activities carried out by other USAID/Pakistan
contractors. 12 The third-party contractor immediately informed the mission of its potential
conflict of interest in evaluating the work of other contractors working in the same region.
As a result of the conflict, the third-party contractor limited its scope of work to onsite

11
   OMB issued a proposed policy letter dated March 31, 2010, through the Office of Federal
Procurement Policy to define inherently governmental function as a function that is so intimately
related to the public interest as to require performance by federal employees. This definition was
adopted from Section 5 of the Federal Activities Inventory Reform Act, Public Law 105-270. The
proposed policy letter also strengthens guidance on functions closely associated with inherently
governmental functions. Although the OMB letter was at the draft stage at the time of the audit,
based on our analysis, the letter serves as additional support because it provided clearly
articulated guidance without the introduction of any substantive changes to existing policies and
guidance. Upon finalization, the policy letter will result in appropriate changes to the Federal
Acquisition Regulation.
12
   Generally, the mission relies on third-party contractors to perform this important government
function because of security concerns about U.S. personnel traveling to high-threat areas in
Pakistan, in accordance with Agency regulations.



                                                                                                8
monitoring and verification of activities. Although the evaluation of activities remained the
mission’s responsibility, the mission never addressed the gap in services created by the
third-party contractor’s conflict of interest. As of June 2010, no evaluations of program
activities had taken place.

Furthermore, the third-party contractor’s conflict of interest left to the mission the
responsibility for following up on reported deficiencies. The mission relied on one PSC
serving as the AOTR to handle deficiencies noted in 355 reports issued from July 2009
to May 2010 covering infrastructure, literacy, agricultural, and livestock activities for all
three agencies in upper FATA. Unfortunately, the AOTR failed to report consequential
deficiencies to the agreement officer, relying instead on the implementers to address the
issues raised in the reports, regardless of the level of deficiency. The AOTR exercised
discretion beyond his authority. For instance, from December 2009 to April 2010, the
third-party contractor reported on problems with the Barang Road project related to
contractual conditions and performance, but the AOTR never elevated these issues to
the agreement officer or other mission officials with the proper authority to address the
problems. Reported problems included poor workmanship, substitution of materials, and
base-course thickness that did not meet specifications. OIG Investigations had informed
the implementer previously of fraud allegations associated with infrastructure projects,
and the implementer had retained its own oversight experts who reported regularly to the
mission agreement officer but mentioned none of the problems reported by USAID’s
third-party contractor. However, although monitoring teams for the mission and mission
staff continued to report issues, mission staff did not coordinate with one another and did
not follow up to evaluate the reports and determine whether the contractor was in
breach. Roadwork continued until it was almost 96 percent complete, when USAID
terminated all contracts for LDP. Subsequently, USAID/Pakistan also terminated the
AOTR’s personal services contract for ethics violations.

The mission relied heavily on the PSC to perform program functions closely associated
with inherently governmental functions. Some functions that the PSC performed or
participated in, along with other team members, included:
•   Performing program development before becoming the AOTR.
•   Providing assistance in the development of statements of work.
•  Supporting acquisition planning, including technical evaluation of LDP contract
proposals.
•  Providing assistance in contract management as the single AOTR for LDP, a
program with a total budget of $300 million.
•   Overseeing third-party monitoring reports of another contractor’s performance.

The functions listed above are closely associated with inherently governmental
functions, and although a PSC is permitted to perform or participate as a team member,
the mission needs to provide close and continual supervision of the contractor engaged
in these functions. The mission also needs to consider the risks involved when a PSC
performs these functions.

In response, USAID/Pakistan officials replied that the mission relies on contractors to
support contract administration largely because of the shortage of U.S. direct hires in



                                                                                           9
Pakistan. Personnel shortages occur because of frequent staff rotations and positions
left unfilled for extended periods. The deteriorating security environment makes
recruitment difficult, particularly for offices in areas such as Peshawar where the security
threat is high. USAID/Pakistan has not prepared a mission workforce plan to address the
shortage of U.S. direct hires who can monitor and evaluate contractors in Pakistan. A
mission workforce plan would help identify and mitigate risks associated with reliance on
contractors providing services that closely support inherently governmental functions. A
workforce plan would also ensure that sufficient personnel are available to manage and
oversee contractors’ performance.

USAID/Pakistan’s overreliance on contractors to support contract administration for LDP
gave rise to risks of conflicts of interest and of contractors performing contract
administration functions. The mission never addressed the gaps created by the potential
conflict of interest raised by the third-party contractor, such as the lack of evaluations
and the need to follow up on reported deficiencies. USAID/Pakistan did not follow up on
the validation reports, even though third-party contractors had identified problems with
the Barang Road project. In addition, because the mission did not administer adequate
management controls or supervise the PSC adequately, the mission was at risk of failing
to identify and correct poor contractor performance. The AOTR’s failure to report
problems promptly to persons with proper authority led to the loss of performance
accountability and possible overpayment of services, especially because of the
allegations of fraud associated with the roadwork. We recommend the following:

   Recommendation 2. We recommend that USAID/Pakistan develop and
   implement a plan, in compliance with Federal Acquisition Regulation 37.114 and
   Office of Management and Budget guidance, to provide proper oversight and
   management of contractors that support contract and agreement administration.

   Recommendation 3. We recommend that USAID/Pakistan perform an analysis,
   as a template for the mission, to establish the sufficiency of the mission’s internal
   capability for control and management of contractors working on the Livelihood
   Development Program, taking into account the goals of the program, the
   complexity of the work, the need for specialized skills, and the effect of contactor
   default on program performance.

   Recommendation 4. We recommend that USAID/Pakistan develop and
   implement a mission workforce plan with guidelines for the consideration of
   increasing the use of U.S. direct-hire personnel for positions engaged in services
   closely associated with inherently governmental functions.

Communications and Planning for Shift in Strategy Fell Short
According to USAID’s Automated Directives System, USAID plays a critical role with
respect to coordination of its partners and host-country governments (ADS 202.3.5.3).
Open communication and planning with the implementing partners and host
governments help to achieve foreign assistance results. In addition, the cooperative
agreement indicates that USAID should work closely with the FATA Secretariat and the
FATA Development Authority to achieve development improvements.




                                                                                           10
On September 30, 2009, a year after the program started, the U.S. Department of State
announced its decision to transfer contracts to Pakistani implementing partners
whenever feasible, intending that the transition to implementation by Pakistanis would
take place as quickly as possible. The announcement listed several activities in which
funding requests were not supported, and both upper and lower FATA LDP were on the
list. The State Department gave the LDP implementers 3-month extensions to transfer
contracts to Pakistani partners. The audit identified two instances in which the initiation
of the shift in strategy affected the Livelihood Development Program.

First, on receiving notice of the shift in strategy in early October 2009, mission staff
reacted instantly, with no guidance or plans authorized by appropriate personnel. The
State Department’s unexpected decision to limit funding for the upper FATA program to
3 months prompted the mission’s contracting office first to ask the implementing partner
to start planning for a demobilization plan, then several weeks later to request a
demobilization plan within 11 days. However, despite the request for a demobilization
plan, the mission instructed the implementers to continue program activities on the basis
of the approved work plan. 13 Also during this period, and apparently without authority
from the contracting office, technical staff instructed the implementing partner to prepare
a transition plan with reduced scopes of work and reduced budgets to phase out the
U.S.-based implementer and pass work off to the GOP and local organizations.
Technical staff also asked the implementer to conduct a capacity evaluation of local
organizations that could take over the program activities. Relying on the instructions
from the technical staff, the implementer prepared the transition work plan with reduced
scopes of work and reduced budgets, which kept changing from September 2009 up
until June 2010, when the mission terminated the implementer’s agreement. According
to the mission, staff members misconstrued the plans and intentions of the State
Department’s announcement. The mission emphasized that planning for the transition
was an internal issue, and staff members should not have gone to implementers to do
the mission’s work. 14 The mission further emphasized that this situation illustrates the
mission’s lack of capacity and its need to set clear policy on the roles and responsibilities
of staff.

Second, the mission did not work closely with the FATA Secretariat and FATA
Development Authority to communicate the intended shift in policy. As late as June
2010, a Secretariat official stated that U.S. officials had not consulted with the FATA
Secretariat on the new policy to shift programs over to the Secretariat. He expressed the
organization’s concerns for taking over existing projects by September 2010, which one
subcontractor told him was the end date. According to the Secretariat official, the FATA
Secretariat needs at least 1 year of preparation to take over program activities, and the
mission should provide a detailed implementation plan that clearly defines the
requirements for his office. He was pleased with the work of the U.S.-based implementer
and noted the difficulties involved in finding local organizations to take over this work.


13
  An approved work plan was not in place in October 2009. The implementer’s second-year work
plan was not approved until March 2010.
14
  Other USAID officials, through a dissent letter, questioned the efficiency and effectiveness of
the Department of State’s mandate over these programs. The confusion prompted Senators John
Kerry and Richard Lugar to address this issue in a letter to the State Department and USAID
dated March 5, 2010.



                                                                                              11
A representative from the Development Authority also stated that no one had consulted
with the Development Authority on the transition timetables, and it too had only recently
become aware of the effect this shift would have on current projects. According to the
official, the Development Authority handed over approximately 46 projects for the
program to develop, but performance was slower than expected, and many projects
were not completed as of June 2010. The Development Authority had not communicated
with mission officials in the last several months, which USAID officials confirmed.

These problems occurred because the mission did not plan for or coordinate the shift in
strategy, for instance by preparing an overall transition policy that would include
procedures, timelines, and budgets. Moreover, USAID/Pakistan did not communicate the
shift in strategy effectively to mission personnel, implementing partners, and the
Government of Pakistan.

The mission needs to improve communications and planning for the transfer of programs
to Pakistani institutions to protect resources and operate programs effectively. Strategic
partners such as the FATA Secretariat and the FATA Development Authority must be
kept informed. Furthermore, implementing partners faced uncertainty about whether they
should go ahead with the program or discontinue program work and demobilize because
of the reduced focus on U.S.-based organizations. The implementers were instructed
erroneously to stop work, and they faced idle periods from September to December
2009 and incurred costs to keep personnel employed. Delays for incremental funding
occurred from September 2009 to May 2010, when requests went through various
channels before approval by officials in the State Department. In this period, program
activities were reduced or dropped, and no long-term projects started although local
communities had selected many of these program activities as priority projects. A
representative from the FATA Development Authority indicated that the lack of activities
reflects poorly on it because the work is performed under GOP branding. Pakistani and
USAID officials raised concerns that the people of Pakistan may begin to lose
confidence and may question the U.S. Government’s commitment to FATA. Therefore,
we recommend the following:

   Recommendation 5. We recommend that USAID/Pakistan develop and
   implement definitive plans for the Livelihood Development Program in regard to
   the   shift toward more direct funding to Pakistani institutions, including
   incremental funding, budgets, transition plans, and any other information that
   may require modifications of relevant agreements and contracts. Moreover, we
   recommend that USAID/Pakistan designate appropriate personnel to
   communicate these plans to implementers and the Government of Pakistan.




                                                                                       12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Pakistan agreed with all recommendations included in the draft report. On the
basis of an evaluation of the mission’s response to the draft report, we determined that
final action has been taken on two recommendations, and management decisions have
been reached on the remaining three recommendations. The status of each of the five
recommendations is shown below.

       Final action—Recommendations 1 and 5.

       Management decision—Recommendations 2, 3, and 4.

Recommendation 2. The mission agreed with the recommendation and plans to
develop a matrix to assist with the mission’s oversight and management of contractors,
including supervisors of technical representatives. Once the mission compiles the matrix
and it is vetted among mission offices, the matrix will be implemented as a tool to
determine whether or not each contractor has an acceptable level of adequate oversight.
Action will then be taken to rectify any oversight gaps. The mission’s target date for
completing this plan is June 30, 2011.

Recommendation 3. The mission agreed with the recommendation and plans to
complete its analysis by June 30, 2011.

Recommendation 4. The mission agreed with the recommendation and has scheduled
a team to review the mission’s staffing levels in December 2010. This team will suggest
changes as necessary to the mission director on staffing levels, with the goal of
optimizing overall programmatic and support staff levels based on the current workload
and other relevant issues. The target date to complete this review is March 31, 2011.

We consider that management decisions have been reached on Recommendations 2, 3,
and 4. The Audit Performance and Compliance Division will make a determination of
final actions on completion of the planned corrective actions.

The mission’s written comments on the draft report are included in their entirety, without
attachments, as Appendix II to this report.




                                                                                       13
                                                                             Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The purpose of this audit was to determine
whether the LDP is achieving its main goal of social and economic stabilization to
counter the growing influence of extremist and terrorist groups in upper FATA. The audit
was conducted at USAID/Pakistan in Islamabad covering the period from April 2008
through June 2010 and addressing the activities implemented under the LDP for upper
FATA. To implement the program in upper FATA, USAID/Pakistan awarded a 5-year,
$150 million cooperative agreement to a U.S.-based nongovernmental organization in
April 2008. The purpose of the agreement is to support the implementation of a social
and economic stabilization and development program to help FATA and Khyber
Pakhtunkhwa (formerly known as the North-West Frontier Province or NWFP). The
specific geographic areas include FATA Agencies Bajaur, Mohmand, Khyber, Frontier
Region Peshawar, and NWFP District Peshawar. As of June 2010, cumulative
obligations under the program totaled approximately $60 million, and expenditures came
to $46.8 million.

To answer the audit objective, we reviewed mission documentation related to managing
and monitoring the LDP—country operational plans, performance management plans,
implementing partner agreements, performance measures, actual performance results,
certifications required under the Federal Managers’ Financial Integrity Act of 1982,
financial reports, data-quality assessments, and site visit and monitoring reports
prepared by third-party U.S. contractors. As part of the audit, we assessed management
controls used by USAID/Pakistan to monitor program activities. The assessment
included controls related to whether the mission approved implementation plans,
conducted and documented site visits, and reviewed monitoring and progress reports
and whether the mission compared reported progress to planned progress. We also
interviewed mission officials, implementing partners, and host-government officials. We
reviewed and compared program targets with actual results reported. We performed
audit fieldwork at USAID/Pakistan and the implementer’s main program office in
Islamabad from May 26 through July 28, 2010.

Methodology
To answer the audit objective and determine whether the program was achieving its
main goal, the audit team interviewed staff at USAID/Pakistan and staff at the
implementer’s country office to gain an understanding of the program and determine the
roles and responsibilities of USAID/Pakistan and the implementing partners. Through the
interview process, the audit team also learned of the reporting controls, procedures, and
processes in place for monitoring the program.




                                                                                      14
                                                                              Appendix I

In planning and performing the audit, the audit team assessed management controls that
the mission used to manage the program. These controls included criteria set out in
Agency regulations and the cooperative agreement. We also reviewed all relevant
documents produced by the implementers and documents and correspondence from
mission officials. These documents provided an overview of the status of activities in
upper FATA, including any significant issues, challenges, or changes in program
implementation. Additionally, the auditors examined the mission’s FY 2009 and FY 2010
annual self-assessment of management controls, which the mission must perform to
comply with the Federal Managers’ Financial Integrity Act of 1982, to determine whether
the assessment cited any relevant weaknesses.

We reviewed applicable laws, regulations, and standards including the Federal
Acquisition Regulation, the Government Accountability Office Standards for Internal
Control, and Office of Management and Budget policies—as well as USAID policies and
procedures pertaining to USAID/Pakistan’s LDP (ADS Chapters 103, 202, 203, 303, and
601). The audit relied on the following sources of evidence: reviews of the Federal
Acquisition Regulation, Agency policies, internal controls, prior audits, and interviews
with and responses to information requests of implementing partners and
USAID/Pakistan.

In assessing the status of the activities during the program’s first and second years of
operations, the auditors relied on interviews conducted with USAID, implementing
partner staff, and representatives from the Government of Pakistan regarding specific
implementation problems and issues reflected in the documents reviewed. Activity
results were supported by published documentation from the implementer, as required
under the cooperative agreement. The audit included the validation of key reported
results of the program’s activities, including literacy and skills trainings, road
improvements and constructions, disaster response and emergency services,
revitalization of community and household infrastructure, and agricultural, livestock, and
microenterprise interventions. Specifically, the audit validated nine outcome indicators,
20 result indicators, and 36 activity indicators. In validating the program’s reported
results, the auditors checked supporting information contained in a database and
examined, on a random test basis, supporting documents maintained by the
implementing partner.




                                                                                       15
                                                                          Appendix II



MANAGEMENT COMMENTS



MEMORANDUM
Date:         November 29, 2010

To:           Michael Hutchinson
              Audit Manager, OIG/Pakistan

From:         Denise Herbol
              Mission Director (A) /s/

Subject:      Management Comments
              Audit of USAID/Pakistan’s Livelihood Development Program for the
              Upper Regions of the Federally Administered Tribal Areas
              (Report No. G-391-11-00X-P)

Reference:    Michael Hutchinson’s memo dated October 18, 2010

In response to the referred memo, please find below the management comments on the
five recommendations included therein:

Recommendation No 1: We recommend that USAID/Pakistan develop and
implement a periodic training program for mission staff that clearly defines the
authority, responsibility, and accountability of agreement officers, technical
representatives, and program staff, including their communications with
implementers, to support an effective management control environment. Because
of the constant changes in personnel, we recommend that the training materials
be made available on USAID/Pakistan’s Intranet for all new arrivals to review in the
interim between training sessions.

Management Comments:
Mission management concurs with this recommendation. The Office of Acquisition and
Assistance at USAID/Pakistan has already issued three Acquisition and Assistance
Notices subsequent to issuance of this audit report that establish clear policies for
mission staff on these matters. A notice regarding conflict of interest was issued on
7/08/2010; A notice on out of scope changes was issued on 7/08/2010, and finally a
notice on Continuing Education for Contracting and Assistance Officer Technical
Representatives (COTR/AOTR) was issued on 9/17/2010. Copies have been included
with this correspondence (Annex A) and uploaded on the USAID/Pakistan intranet.
COTR/AOTR training was recently given to the Mission on July 14, 2010. In addition, the



                                                                                    16
                                                                              Appendix II

Mission will host two COTR/AOTR training sessions in February and March of 2011. The
list of participants attending this training is attached as Annex – B. This training can be
made available to supervisors of AOTR’s and COTR’s and continued online training and
resources are available at USAID/University and other websites.

Therefore, Mission requests closure of this recommendation.

Recommendation No 2: We recommend that USAID/Pakistan develop and
implement a plan, in compliance with Federal Acquisition Regulation (FAR) 37.114
and Office of Management and Budget (OMB) guidance, to provide proper
oversight and management of contractors that support contract and agreement
administration.

Management Comments
Mission management concurs with this recommendation. The Office of Acquisition and
Assistance (Pakistan) is in compliance with Federal Acquisition Regulation 37.114 and
Office of Management and Budget (OMB) guidance regarding proper oversight and
management of contractors that support contracts and agreements. All personnel
designated to oversee and direct contractor’s performance are certified and trained in
accordance with USAID’s Automated Directive System (ADS) 302, Procedures for
Designating the Contracting Officer’s Technical Representative (COTR) for Contracts
and Task Orders and ADS 303, Agreement Officer’s Technical Representatives
Appointment Procedures.

In order to assure that the mission is providing proper oversight and management of
contractors, the mission will develop a plan to periodically identify the following:
Technical Team, Activity, Contractor or Grantee for said activity, AOTR/COTR for each
Contractor/Grantee and employee type (DH or PSC), and supervisor for each
AOTR/COTR and employee type, compiled using a matrix format. Third party
contractors will be noted for additional review. After the matrix is compiled and vetted
amongst mission offices, the matrix will be implemented as a tool to determine whether
or not each contractor has an acceptable level of adequate oversight. Action will then be
taken to rectify any oversight issues that would occur as a result of the findings. The
mission plans to have this exercise completed by June 30, 2011.

Recommendation No 3: We recommend that USAID/Pakistan perform an analysis,
as a template for the mission, to establish the sufficiency of the mission’s internal
capability for control and management of contractors working on the Livelihood
Development Program, taking into account the goals of the program, the
complexity of the work, the need for specialized skills, and the effect of contactor
default on the program performance.

Management Comments
Mission management concurs with this recommendation and the Office of Acquisition
and Assistance is planning to perform this analysis for the Mission by June 30th 2011.

Recommendation No 4: We recommend that USAID/Pakistan develop and
implement a mission workforce plan with guidelines for the consideration of
increasing the use of U.S. direct-hire personnel for positions engaged in services
closely associated with inherently governmental functions.



                                                                                        17
                                                                             Appendix II

Management Comments
Mission Management concurs with this recommendation. While U.S. direct-hires are not
permitted to work in certain areas of the country, the mission is bringing in a two person
team for two weeks in December 2010 to review USAID/Pakistan staffing levels and to
suggest/make changes as necessary to the Mission Director on staffing levels, with the
goal of optimizing overall programmatic and support staff levels based on the current
workload and other relevant issues. The mission plans to have this analysis completed
by March 31, 2011.

Recommendation No 5: We recommend that USAID/Pakistan develop and
implement definitive plans for the Livelihood Development Program in regard to
the shift toward more direct funding to Pakistani institutions, including
incremental funding, budgets, transition plans, and any other information that
may requires modifications of relevant agreements and contracts. Moreover, we
recommend that USAID/Pakistan designate appropriate personnel to
communicate these plans to implementers and the Government of Pakistan.

Management Comments
Mission management concurs with this recommendation. Cooperative Agreement No.
391-A-00-08-01107 for FATA Livelihood Development Programs was terminated on
June 4, 2010. In addition, it is noteworthy to mention that a Deputy Mission Director has
since been assigned to the Peshawar Consulate to communicate changes to
implementation plans/strategy as a direct representative of USAID/Pakistan. USAID
intends to continue its work in the Upper FATA for the foreseeable future.

Therefore, Mission requests closure of this recommendation.




                                                                                       18
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel.: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig
